           MANAGEMENT LETTER
           REPORT NUMBER 12-07




MANAGEMENT ADVISORY COMMENTS IDENTIFIED IN
       THE ENGAGEMENT TO AUDIT THE
 CONSOLIDATED FINANCIAL STATEMENTS FOR THE
       YEAR ENDED SEPTEMBER 30, 2011


             February 14, 2012
Date
February 14, 2012
To
Acting Public Printer
From
Inspector General
Subject
Management Advisory Comments
Report Number 12-07


KPMG LLP (KPMG), under contract to the United States Government Printing
Office (GPO), Office of Inspector General (OIG), was engaged to audit GPO’s
consolidated financial statements as of and for the year ended September
30, 2011. In connection with the audit engagement, GPO’s internal controls
over financial reporting and compliance with certain provisions of
applicable laws, regulations, and contracts that could have a direct and
material effect on the consolidated financial statements were also
considered. Providing opinions on the effectiveness of GPO’s internal
control over financial reporting and on compliance with laws, regulations,
and contracts was not an objective of the engagement, and accordingly, such
opinions were not provided.

However, certain matters were noted during the course of the engagement.
This report was prepared to provide information to management that could
help in the development of corrective actions for the management advisory
comments identified in the engagement. These findings and
recommendations are presented in this report.

KPMG is responsible for the attached management advisory comments and
the conclusions expressed in this report. However, in connection with the
contract, we reviewed KPMG's management advisory comments and related
documentation and inquired of its representatives. Our review disclosed no
instances where KPMG did not comply, in all material respects, with contract
requirements.
Acting Public Printer
Report 12-07
February 14, 2012
Page 2 of 2


If you have any questions or comments about this report, please do not
hesitate to contact me at (202) 512-0039.




Michael A. Raponi
Inspector General

Attachment



cc:
General Counsel
Chief Financial Officer
